~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Kathryn
Strayhorn v. West Virginia Department of Health and
Human Resources, was sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service to the following parties listed below,
this 28th day of June, 2021:
Lindsay See
Solicitor General
Attorney General of West Virginia
1900 Kanawha Blvd. East
Building 1 Room E26
Charleston, WV 25305-0220
(304) 558-5830
Counsel for Respondent
Christian J. Riddell
Counsel of Record
The Riddell Law Group
329 S. Queen Street
Martinsburg, WV 25401
(304) 267-3949
mail@theriddelllawgroup.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati , Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

&.ry
[seal]

b ~/.z-1
1

Public

-....::::::::::

